Case: 19-50641

Document: 00515502886

Page: 1

Date Filed: 07/24/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 19-50641
A True Copy
Certified order issued Jul 24, 2020

dwt{ W.

ROBERT MUNOZ,

Clerk, U.S. Court of Appeals, Fifth Circuit

Petitioner-Appellant
v.
LORIE DAVIS, DIRECTOR, TEXAS DEPARTMENT
JUSTICE, CORRECTIONAL INSTITUTIONS DIVISION,

OF

CRIMINAL

Respondent-Appellee

Appeals from the United States District Court
for the Western District of Texas

ORDER:
Robert Munoz, Texas prisoner # 01859917, was convicted of two counts
of sexual assault of a child younger than 17 years of age and was sentenced to
10 years of imprisonment on each count, to be served consecutively. He now
moves for a certificate of appealability (COA) following the dismissal of his 28
U.S.C. § 2254 petition as time barred. Munoz also moves for leave to proceed
in forma pauperis (IFP) on appeal. He asserts that his § 2254 petition should
not have been dismissed as time barred because his actual innocence
constituted an exception to the statute of limitations.
To obtain a COA, a prisoner must make “a substantial showing of the
denial of a constitutional right.” 28 U.S.C. § 2253(c)(2). When a § 2254 petition
is dismissed on procedural grounds, “a COA should issue when the prisoner

Case: 19-50641

Document: 00515502886

Page: 2

Date Filed: 07/24/2020

No. 19-50641
shows, at least, that jurists of reason would find it debatable whether the
petition states a valid claim of the denial of a constitutional right and that
jurists of reason would find it debatable whether the district court was correct
in its procedural ruling.” Slack v. McDaniel, 529 U.S. 473, 484 (2000).
Munoz has not made the requisite showing. See id. Accordingly, his
motions for a COA and leave to proceed IFP on appeal are DENIED.

/s/ James E. Graves, Jr.
JAMES E. GRAVES, JR.
UNITED STATES CIRCUIT JUDGE

2

Case 7:18-cv-00191-DC Document 31 Filed 06/07/19 Page 1 of 1

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF TEXAS
MIDLAND/ODESSA DIVISION
ROBERT MUNOZ

§
§

vs.

§

LORIE DAVIS

§
§

NO: MO: 18-CV-00191 -DC

FINAL JUDGMENT
On this day, the Court entered an Order Dismissing Petitioner’s Application for Writ of
Habeas Corpus by a Person in State Custody pursuant to 28 U.S.C. §2254, as time-barred. The
Court now enters its Final Judgment pursuant to Federal Rule of Civil Procedure 58.
Accordingly, it is hereby ORDERED that Petitioner’s Application for Writ of Habeas
Corpus by a Person in State Custody filed pursuant to 28 U.S.C. §2254 is DENIED.
It is further ORDERED that the above-captioned cause is DISMISSED WITH
PREJUDICE with the Parties to bear their own costs.
It is finally ORDERED that all other pending motions, if any, are DENIED AS MOOT
and a CERTIFICATE OF APPEALABILITY WILL NOT ISSUE in this case.
It is so ORDERED.
SIGNED this 7th day of June, 2019.

DAVID COUNTS
UNITED STATES DISTRICT JUDGE

